<html>
<title> - HEARING TO REVIEW THE P.L. 83-566 WATERSHED PROPOSALS FOR THE DUNLOUP CREEK WATERSHED AND THE CAPE COD WATER RESOURCES RESTORATION PROJECT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                   HEARING TO REVIEW THE P.L. 83-566
                      WATERSHED PROPOSALS FOR THE
                    DUNLOUP CREEK WATERSHED AND THE
                        CAPE COD WATER RESOURCES
                          RESTORATION PROJECT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, CREDIT,
                          ENERGY, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2009

                               __________

                           Serial No. 111-27


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
52-692 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho

                                 ______

                           Professional Staff

Robert L. Larew, Chief of Staff      Nicole Scott, Minority Staff 
Andrew W. Baker, Chief Counsel       Director
April Slayton, Communications 
Director

                                  (ii)
?

                                 ______

       Subcommittee on Conservation, Credit, Energy, and Research

                   TIM HOLDEN, Pennsylvania, Chairman

STEPHANIE HERSETH SANDLIN, South     BOB GOODLATTE, Virginia, Ranking 
Dakota                               Minority Member
DEBORAH L. HALVORSON, Illinois       JERRY MORAN, Kansas
KATHLEEN A. DAHLKEMPER,              SAM GRAVES, Missouri
Pennsylvania                         MIKE ROGERS, Alabama
BETSY MARKEY, Colorado               STEVE KING, Iowa
MARK H. SCHAUER, Michigan            RANDY NEUGEBAUER, Texas
LARRY KISSELL, North Carolina        JEAN SCHMIDT, Ohio
JOHN A. BOCCIERI, Ohio               ADRIAN SMITH, Nebraska
MIKE McINTYRE, North Carolina        ROBERT E. LATTA, Ohio
JIM COSTA, California                BLAINE LUETKEMEYER, Missouri
BRAD ELLSWORTH, Indiana              GLENN THOMPSON, Pennsylvania
TIMOTHY J. WALZ, Minnesota           BILL CASSIDY, Louisiana
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
FRANK KRATOVIL, Jr., Maryland
SCOTT MURPHY, New York
WALT MINNICK, Idaho
EARL POMEROY, North Dakota

               Nona Darrell, Subcommittee Staff Director

                                 (iii)




                             C O N T E N T S

                              ----------                              
                                                                   Page
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  opening statement..............................................     2
Holden, Hon. Tim, a Representative in Congress from Pennsylvania, 
  opening statement..............................................     1
Rahall II, Nick J., a Representative in Congress from West 
  Virginia, prepared statement...................................     2

                               Witnesses

Delahunt, Hon. Bill, a Representative in Congress from West 
  Massachusetts..................................................     3
    Prepared statement...........................................     5
White, Dave, Chief, Natural Resources Conservation Service, U.S. 
  Department of Agriculture, Washington, D.C.....................     8
    Prepared statement...........................................     9

                           Submitted Material

Geist, Margaret, Executive Director, Association to Preserve Cape 
  Cod, submitted statement.......................................    15
Shumate, Mike, Board Member, Dunloup Creek Watershed Association, 
  submitted statement............................................    16

 
                   HEARING TO REVIEW THE P.L. 83-566
                      WATERSHED PROPOSALS FOR THE
        DUNLOUP CREEK WATERSHED AND THE CAPE COD WATER RESOURCES
                          RESTORATION PROJECT

                              ----------                              


                        THURSDAY, JULY 30, 2009

                  House of Representatives,
 Subcommittee on Conservation, Credit, Energy, and 
                                          Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Tim 
Holden [Chairman of the Subcommittee] presiding.
    Members present: Representatives Holden, Boccieri, Massa, 
Minnick, Goodlatte, Moran, Neugebauer, and Smith.
    Staff present: Christy Birdsong, Nona Darrell, Adam Durand, 
John Konya, Merrick Munday, Anne Simmons, April Slayton, 
Rebekah Solem, Patricia Barr, Josh Maxwell, Pelham Straughn, 
and Jamie Mitchell.

   OPENING STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. This hearing of the Subcommittee on 
Conservation, Credit, Energy, and Research to review the Public 
Law 83-566 watershed proposals for the Dunloup Creek Watershed 
and the Cape Cod Water Resources Restoration project will come 
to order.
    Small watershed programs authorized under Public Law 83-566 
require that proposed watershed projects, with an estimated 
Federal contribution to construction costs in excess of $5 
million and no single structure exceeding 4,000 feet of total 
capacity, be reviewed and approved by this Committee.
    The Dunloup Creek Watershed is located in Fayette and 
Raleigh Counties of West Virginia. The Cape Cod Water Resources 
restoration project is located in 15 towns across Cape Cod, 
Massachusetts. The project's sponsors have been working with 
the Natural Resources Conservation Service to make sure that 
the projects are sound and feasible. Today we will hear from 
the gentleman from Massachusetts and NRCS. We hope this 
testimony will concretely demonstrate the need for these 
projects and the common good that may result upon completion of 
the projects.
    I have a similar project in Pennsylvania, the Tuplehocken 
Watershed, which is actually nearing completion. I think it is 
very important that we take care of these watersheds across 
rural America and that we also address the backlog in these 
projects. I look forward to hearing from our witnesses today.
    I recognize the Ranking Member of the Subcommittee, the 
gentleman from Virginia, Mr. Goodlatte.

 OPENING STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN 
                     CONGRESS FROM VIRGINIA

    Mr. Goodlatte. Thank you, Mr. Chairman. I very much 
appreciate your calling today's hearing to review these 
watershed proposals. The Committee must approve any watershed 
project with construction costs over $5 million and no single 
structure exceeding 4,000 acre feet of total capacity. Today we 
will be given the opportunity to review two proposals that 
exceed that statutory limit.
    The last time the Committee was called to authorize a 
project was in 2001 when we authorized the Buena Vista 
Watershed in my district. This project, along with many others, 
has reduced threats from floods, improved the environment, 
increased economic development, and helped develop the 
infrastructure on which many rural communities depend.
    I hope to learn more about how NRCS will prioritize these 
watershed projects. The watershed protection and flood 
prevention operation currently has a backlog of $1.19 billion 
worth of projects. Many of the projects that receive funding do 
so through earmarked funds. I have concerns about adding such 
high-cost projects without learning more about their objectives 
and impacts on rural communities, especially when, by my 
estimate, Members of this Committee have over 100 authorized 
watershed projects awaiting Federal funding.
    I also hope to learn more about the direct impacts that 
these projects will have on agriculture and rural communities. 
I look forward to hearing from our colleague, Congressman 
Delahunt, and the NRCS as we learn more about these projects. I 
hope that their testimony will demonstrate the need for the 
projects and the common good that will result from their 
completion, and I look forward to hearing from today's 
witnesses. Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony and we can ensure that there is ample time for 
questions.
    [The prepared statement of Mr. Rahall follows:]

   Prepared Statement of Hon. Nick J. Rahall II, a Representative in 
                      Congress from West Virginia
    Mr. Chairman,

    First, let me start by thanking you for calling this important 
hearing today. As you know, this hearing is of great importance to the 
Dunloup Creek Watershed Association and the people of southern West 
Virginia.
    Dunloup Creek is a 16.2 mile long watershed that runs through five 
communities in my Congressional District--Kilsyth, Mount Hope, Glen 
Jean, Red Star, and Harvey, West Virginia. This watershed has 
historically been susceptible to serious flooding causing great 
hardship to the West Virginians who live there and the surrounding 
communities.
    The Dunloup Creek Watershed Association has a long history in West 
Virginia. Since its inception in 1964, the Dunloup Creek Watershed 
Association has been working to protect the watershed, the surrounding 
environment, and all the residents.
    As you know, Mr. Chairman, the Dunloup Creek Watershed Association 
is seeking funding for the 2007 National Resource Conservation 
Service's Voluntary Buyout Program. Funding for this crucial program 
would be a huge step toward helping these residents gain relief from 
the serious flooding that occurs in the watershed.
    There are 290 homes in the floodplain which represent roughly 1,160 
West Virginian citizens. These residents have dealt with the negative 
consequences of reoccurring flooding for far too long.
    After much work, too much time, and far too much damage from 
flooding, many of the residents believe that the best option that they 
have to protect themselves and their families is to participate in the 
Voluntary Buyout Program. As the name suggests, the program is 
voluntary and the Dunloup Creek Watershed Association is going door-to-
door to ensure that every single resident is notified about this 
option.
    I believe that this program will greatly help these strong and 
resourceful West Virginians lead new lives free from the fears of 
constant flooding.
    Mr. Chairman, please allow me to once again thank you for holding 
this hearing and for allowing me to testify on behalf of the Dunloup 
Creek Watershed Association here today.

    The Chairman. We would like to welcome our first witness to 
the table today, the Hon. William D. Delahunt, Member of 
Congress from the 10th Congressional District of Massachusetts. 
Mr. Delahunt, you may begin.

 STATEMENT OF HON. BILL DELAHUNT, A REPRESENTATIVE IN CONGRESS 
                       FROM MASSACHUSETTS

    Mr. Delahunt. Well, thank you, Mr. Chairman, Ranking Member 
Goodlatte, and Members of the Committee for inviting me to 
speak today on behalf of the Cape Cod Water Resources 
Restoration Project, which is critical to the fishing and 
shellfishing industries in my district.
    As many in Washington are aware, Cape Cod is celebrated 
nationally as a thriving tourist destination and retirement 
area. It is a special place that is treasured for its beaches, 
its quaint character, historic villages and scenic vistas. 
However, in contrast to this postcard image, there is a 
different reality. It is a Cape Cod with a year-round community 
living largely on low wages and fixed incomes that are 
struggling to survive.
    When you remove the tourism and retirement sectors of the 
Cape's economy, what you note is an economy that is driven year 
round by the building trades and the fishing and shellfishing 
and cranberry industries. It is a largely blue-collar worker 
that provides median family incomes well below the state and 
national average. Median income for a family of four is about 
ten percent below the Commonwealth of Massachusetts and the 
national average. These jobs define the true character of Cape 
Cod and they have been the source of income for working 
families for generations.
    And today, Mr. Chairman, these industries are in serious 
difficulty. Cranberry growers now compete with developers for 
choice real estate to sustain their crops. Fishermen compete 
with much larger and well-financed fleets as well as depleted 
fisheries. Shellfishermen are faced with many threats including 
red tide, road and fertilizer runoff, and coastal development 
that has shut down hundreds of acres of coastal waters.
    The current trends are not pretty. Unless we take 
aggressive action now, we could very well see these industries 
disappear. These problems are not unique to Cape Cod. These 
trends are affecting communities along the entire East Coast. 
Unless we find ways here in Washington to help these industries 
survive, these people will go out of business. Our coastal 
areas are on the verge of becoming the exclusive playground of 
the rich.
    I am quite fortunate as a Congressman to have a dedicated 
team of local, state and national officials who understand this 
reality and our dedicated to preserving old Cape Cod. We are 
also fortunate to have the USDA's Natural Resources 
Conservation Service to help these traditional industries 
survive in the face of these overwhelming pressures, and to 
help us address the direct threats facing the future of our 
shellfishing industry on Cape Cod.
    The initiative now before this Committee is the result of 
many years of hard work and extensive collaboration with 
hundreds of officials, agencies and community leaders. NRCS 
brought together local officials, state agencies, county 
government and nonprofit conservation groups like the 
Association for the Preservation of Cape Cod, and of course, 
shellfishermen. They designed this project to restore the 
quality of our coastal waters and bring back shellfish beds 
that have been shut down or at the risk of closure.
    The initiative identifies 75 water restoration initiatives, 
all in individual local communities across the region. The 
estimated cost of the project, as you noted, Mr. Goodlatte, is 
$30 million. It will produce a much-needed economic boost to 
our region and create an estimated 543 jobs, primarily in the 
area of construction and engineering. But more importantly, 
this will also create thousands of full- and part-time jobs in 
the shellfish industry.
    The NRCS and the Obama Administration have made this 
initiative one of their top priorities. It has broad support 
throughout the region. Funding is readily available so that we 
can put people to work right away to restore these coastal 
waters.
    Now, we understand that there are some outstanding 
questions that I would like to address for the record. 
Questions have been raised about whether Cape Cod is a rural 
area and still qualifies for funding. Well, the NRCS has 
determined that the area is rural, and I agree with their 
assessment and conclusion. The NRCS policy on small watershed 
projects defines rural as communities with populations less 
than 50,000. All 15 towns on the Cape have populations that 
meet this criterion. It may interest you to know that Cape Cod 
also receives rural funding from the Department of Education, 
the Department of Health and Human Services, as well as other 
Federal agencies.
    We have also been asked whether the shellfish beds that 
would benefit are farmed beds. The project does indeed benefit 
farmed or harvested shellfish beds. We expect these areas to be 
used by commercial shellfishermen and we have a statement from 
the Commonwealth of Massachusetts to support this. It is my 
understanding that it is part of the record. We can provide 
additional documentation and information to the Committee 
should it be necessary.
    On behalf of the residents of Cape Cod, I would like to 
conclude by expressing my hope that you will endorse the Cape 
Cod Water Resources Restoration Project. I want to state for 
the record how proud I am to have the Department of Agriculture 
and the dedicated professionals of the NRCS like Don Kearnan, 
who is here today, as partners working with my office and our 
communities as we strive to protect the future of Cape Cod and 
cranberry and fishing and its shellfish industries.
    So on behalf of thousands of hardworking people in my 
district who depend on these jobs, I want to thank them and I 
want to thank you for this opportunity.
    [The prepared statement of Mr. Delahunt follows:]

Prepared Statement of Hon. Bill Delahunt, a Representative in Congress 
                           from Massachusetts
    Good morning. I want to thank you Chairman Holden, Ranking Member 
Goodlatte and Members of the Committee--for inviting me to speak today 
on behalf of the Cape Cod Water Resources Restoration Project. I am 
here to testify in strong support of this project--which is so critical 
to the fishing and shellfishing industries in my district.
    As many here in Washington know, Cape Cod is known around the 
country as a thriving tourist destination and retirement area. It is a 
special place that is treasured for its beaches, its quaint character 
historic villages and scenic vistas. However, in contrast to this post 
card image, is a far more realistic portrait. It is a Cape Cod, with a 
year round community, living largely on low wages and fixed incomes, 
that is struggling to survive.
    When you take away the tourism and retirement sectors of the Cape's 
economy, what you have is an economy driven year round by the building 
trades, and the fishing, shell-fishing and cranberry industries. It is 
largely blue collar work that provides median family incomes well below 
the state and national average. These jobs define the true character of 
Cape Cod, and they have been the source of income for working families 
for generations.
    Today, these industries are in serious trouble.
    Cranberry growers now compete with developers for choice real 
estate to sustain their crops. Fishermen compete with much larger well 
financed vessels and depleted fish stocks. Shellfishermen are faced 
with many threats, including red tide, road and fertilizer run-off, and 
coastal development that has shut down hundreds of acres of coastal 
waters.
    The current trends are not pretty.
    Unless we take aggressive action now, we could very well see these 
industries disappear. These problems are not unique to Cape Cod, these 
trends are affecting communities along the entire East coast. But 
unless we find ways here in Washington, to help these industries 
survive, these people will go out of business. Our coastal areas are on 
the verge of becoming the exclusive playgrounds of the rich.
    I am quite fortunate as a Congressman to have a dedicated team of 
local, state and regional officials who understand this stark reality 
and are dedicated to preventing this from happening. We are also 
fortunate to have the USDA, the Soil Conservation Service, and the 
Natural Resources Conservation Services--or the ``NRCS'' all pitching 
in, to help these traditional industries survive in the face of these 
overwhelming pressures and to help us address the direct threats facing 
the future of our shellfishing industry on Cape Cod.
    The initiative now before this Committee, is the result of many 
years of hard work and extensive collaboration with hundreds of 
officials, agencies and community leaders. The NRCS brought together 
local officials, state agencies, county government and nonprofit 
conservation groups--like the Association for the Preservation of Cape 
Cod and even shellfishermen. They designed this project to restore the 
quality of our coastal waters and bring back shellfish beds that have 
been shut down or are at risk of closure.
    The initiative identifies seventy five water-restoration 
initiatives, all in individual local communities across the Cape Cod 
region. The estimated cost of the project is $30 million. It will 
produce a much-needed economic boost to our region and create an 
estimated 543 jobs primarily in the areas of construction and 
engineering, but will also create thousands of full and part time jobs 
in the shellfish industry.
    The NRCS and the Obama Administration have made this initiative one 
of its top priorities. It has broad support throughout my district. 
Funding is readily available so that we can put people to work right 
away restoring these coastal waters.
    We understand that there are a couple of outstanding question that 
I would like to address for the record--
    Questions have been raised about whether Cape Cod is a ``rural'' 
area and still qualifies for funding. Let me address this head-on. The 
NRCS has determined that the area is rural. I agree with their 
assessment.
    The NRCS policy on small watershed projects defines rural as 
communities with populations less than 50,000. All five towns on the 
Cape have populations that meet these criteria. It may interest you to 
know that Cape Cod also receives ``rural'' funding from the Departments 
of Education, Health and Human Services, and other Federal agencies.
    We have also been asked whether the shellfish beds that would 
benefit are ``farmed'' beds. The project does benefit farmed or 
``harvested'' shellfish beds. We expect these areas to be used by 
commercial shellfishermen, and we have a statement from the 
Commonwealth of Massachusetts to back this up. We can provide 
additional documentation and information to the Committee, should it be 
necessary.
    On behalf of the residents of Cape Cod, I would like to conclude by 
expressing my hope that you will endorse the Cape Cod Water Resources 
Restoration Project. I want to thank you for the opportunity to testify 
before this Committee in strong support for this project. I want to 
state for the record how proud I am to have the Department of 
Agriculture and the dedicated professionals of the NRCS as partners 
working with me and our communities as we strive to protect the future 
of our cranberry, fishing and shellfish industries on Cape Cod.
    On behalf of the thousands of hardworking people in my district who 
depend on these jobs, I want to thank them, and thank you.
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Thank you, Mr. Delahunt.Mr. Goodlatte. If I might just add a word?
    The Chairman. The gentleman from Virginia.
    Mr. Goodlatte. My friend from Massachusetts knows that my father 
grew up on Cape Cod and graduated from Barnesville High School. I know 
well the gentleman's love of Cape Cod and I would be willing to bet, 
even though I can't see it from here, that there is a Cape Cod design 
on his tie.
    Mr. Delahunt. In fact, this is the tie that was presented to me, 
Mr. Goodlatte, by the Ranking Member of the Judiciary Committee, Mr. 
Smith. I don't know if you were there on that particular occasion, but 
it certainly is one of the highlights of my Congressional career.
    Mr. Goodlatte. And Mr. Smith is also a lover of the Cape.
    The Chairman. The chair thanks the gentleman. Thank you, Mr. 
Delahunt.
    Mr. Delahunt. Thank you.
    The Chairman. We would now like to welcome our second panel, Mr. 
Dave White, Chief, Natural Resources Conservation Service from the 
United States Department of Agriculture. Mr. White, you may begin when 
you are ready.

STATEMENT OF DAVE WHITE, CHIEF, NATURAL RESOURCES CONSERVATION SERVICE, 
                           U.S. DEPARTMENT OF
                     AGRICULTURE, WASHINGTON, D.C.

    Mr. White. Good morning. It is grand to be here, Mr. Chairman, Mr. 
Ranking Member, distinguished Members of the Subcommittee, to discuss 
the Dunloup Creek Watershed and the Cape Cod project. These are both 
large-scale watershed projects that are going to provide economic and 
environmental benefits to the community should this Committee choose to 
authorize them. As the Ranking Member and the Chairman said, the reason 
we are here today is because the statutory requirement of the size of 
certain watersheds require Congressional authorization.
    I want to stress right now my view of NRCS. This is not our 
program. These are not our plans. We are the stewards of these 
programs. We will try to be faithful stewards and we want to be humble 
in how we operate these programs. The plans before you we worked with 
closely, over many years, with the local sponsors, but I think both Mr. 
Kearnan and Mr. Shumate would agree that these are the local sponsors' 
plans that we helped with.
    Let us start with Dunloup Creek. This is essentially a floodplain 
buyout. This is an area of West Virginia where there have been 
continual flooding. In fact, there have been 15 flood events since 
1986. There are about 203 acres inside this watershed that constitute 
the project area. There are roughly 300 homes, businesses, and churches 
that would be eligible for this buyout. We are estimating that about 80 
percent would take advantage of it, which is about 238, which is the 
number in the testimony. Projected cost is $13.9 million, about $12\1/
2\ million is Federal. The reason the Federal share is high is we do 
pay 100 percent of flood control or flood mitigation costs.
    A key point here, this is a buyout. The Federal Government will not 
own this land. It will be held in fee title by the county and there 
will be a deed restriction that would prevent development on this land 
in the future.
    Cape Cod, Mr. Delahunt's testimony gave a good summary of that. 
This is a $30 million project that would impact all of Cape Cod and the 
15 communities located there. It is essentially three items really. A 
lot of the past roadwork in that area has restricted the flow of the 
tides in and out of the tidal marsh. You have a lot of freshwater in 
those marshes now. You have big problems with phragmites, which is an 
invasive reed. If we can open up those culverts to allow the water to 
flow in and out, we can restore those. Mr. Delahunt mentioned a lot of 
the closures of the shellfish beds. Part of this project is working on 
26 high-priority areas where stormwater is polluting these beds. We are 
looking at constructed wetlands, we are looking at sand traps, we are 
looking at leach fields that would be similar to a septic system where 
the first flush of the water would come in and then infiltrate. We are 
also looking at about 24 areas where fish passages would benefit 
anadromous fish. These are fish that are born in freshwater, they spend 
their life in the saltwater and they come back to spawn, and if they 
hit a dam or if there is a culvert that is askew, they just can't get 
through, so there would be about 24 of those restored.
    This Committee has shown an enthusiasm for these projects. As Mr. 
Goodlatte mentioned, the last time we were before you all was in 2001 
with Buena Vista. NRCS does enthusiastically support these projects. We 
hope that the Committee will join us in that as well, and that would 
conclude my remarks, Mr. Chairman.
    [The prepared statement of Mr. White follows:]

Prepared Statement of Dave White, Chief, Natural Resources Conservation 
       Service, U.S. Department of Agriculture, Washington, D.C.
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the Dunloup Creek 
Watershed project and the Cape Cod Water Resources Restoration Project. 
These two projects are large-scale watershed projects that, should they 
be implemented, would provide environmental and economic benefits to 
the local communities. The plans for these projects were developed by 
local sponsors with the help of USDA's Natural Resources Conservation 
Service (NRCS).
    The local sponsors of the Cape Cod restoration project include the 
Commissioners of Barnstable County, Massachusetts, the Commonwealth of 
Massachusetts, the Cape Cod Conservation District, and all 15 towns 
across the Cape Cod peninsula. The local sponsors of the Dunloup Creek 
Watershed project are Fayette County Commission, the City of Mount 
Hope, the Southern Conservation District and the West Virginia State 
Conservation Committee. In compliance with statute, these sponsors have 
requested that their project plans, developed with the assistance of 
NRCS, be authorized for funding. The authorizing legislation for the 
Watershed Protection and Flood Prevention Operations program (Watershed 
Operations) stipulates that before appropriations can be enacted for 
proposed watershed projects with an estimated Federal contribution in 
excess of $5,000,000 with no single structure exceeding 4,000 acre feet 
of total capacity require approval resolutions by the House and Senate 
Committees on Agriculture. These Committees last took action in this 
program in 2001 when they approved funding for the Buena Vista 
Watershed Project in Virginia.
    Both Dunloup Creek and Cape Cod have gone through an exhaustive, 
multi-year planning process to examine the scope of the issues and 
evaluate a range of alternative courses of action. NRCS supports the 
authorization of both projects.
Dunloup Creek Watershed Project
    The Dunloup Creek Watershed project is designed to alleviate flood 
damage and improve water quality in an area with a population of 
approximately 3,000 people in Fayette and Raleigh Counties, West 
Virginia. Parts of five communities in the project area have been 
impacted by repeated flooding--15 events since 1986. Two particularly 
devastating floods occurred in 2001 and 2004. The project plan 
determined that traditional structural flood mitigation measures, 
including dams, channels, floodwalls, dredging, and flood proofing 
would not be effective or cost-efficient in reducing flood damages. All 
of these alternatives were evaluated against environmental and economic 
considerations in an effort to find a solution to the resource 
concerns. Through the planning process, the local sponsors identified a 
voluntary floodplain buyout as the most cost-effective and feasible 
option for the impacted communities.
    The plan consists of a voluntary buyout of 238 threatened 
properties currently located within the 100 year floodplain. Buildings 
and other facilities would be removed from up to 203 acres to restore 
the floodplain to more natural conditions. Property obtained would be 
maintained in perpetuity by the local sponsors as natural floodplain. 
The estimated total cost of the project is $13.9 million, of which the 
Federal share is $12.5 million. The flood mitigation, water quality and 
wildlife benefits offered by the Dunloup Creek Watershed project are 
significant, and this effort affords USDA an opportunity to make a real 
difference in an economically distressed area of the country.
Cape Cod Water Resources Restoration Project
    The Cape Cod Water Resources Restoration Project would impact 15 
different communities in Barnstable County on the Cape Cod peninsula. 
Approximately 58% of the project area is composed of cropland, 
forestland, grassland, wetlands, and open land. Each of the communities 
that are cosponsoring the project has a population of less than 50,000, 
meeting the programmatic definition of ``rural communities.'' The total 
permanent, year-round population on Cape Cod is approximately 222,200.
    The watershed restoration project would address several significant 
problems across the Cape, including degraded salt marshes, restricted 
anadromous fish runs, and declining water quality of shellfish areas. 
The project plan indicates that pollutants in stormwater runoff are 
negatively impacting water quality, particularly as it relates to 
shellfish beds. The project would also directly address fish migration 
barriers. In addition, tidal wetland restoration called for in the 
project plan will improve ecosystem function, provide improved fish and 
wildlife habitat, and help control the spread of invasive plant 
species.
    The project plan recommends the following restoration actions:

    1. Restoration of salt marshes and anadromous fish runs through 
        structural measures. Examples of these structural measures 
        include water control structures, fish ladders, and culvert 
        enlargement for tidally restricted salt marshes.

    2. Restore and protect shellfish beds by treating stormwater 
        runoff. Examples of improvements include constructed wetlands, 
        infiltration basins or trenches, dry wells and sand filters, 
        and vegetative filters.

    The project plan recommends carrying out 26 priority salt marsh 
restoration projects, 24 priority fish passage obstruction remediation 
projects, and 26 priority stormwater remediation projects. The 
estimated total cost of the Cape Cod project is $30 million, with the 
Federal share being $24 million. Implementation of the Cape Cod Water 
Resources Restoration Project would lead to the resolution of 
significant land and water management problems for rural communities 
across Cape Cod, provide benefits to fish and wildlife, and improve the 
health and economic viability of the Cape's shellfish beds.
    I thank the Subcommittee for the opportunity to present these 
projects and request their authorization. We believe that the vision 
and needs of the local communities have been well crafted and 
articulated in both proposals, and that the local sponsors have worked 
hard to define their goals and hopes for the future of their 
communities in both West Virginia and Massachusetts. This concludes my 
statement, and I would be happy to answer any questions the 
Subcommittee might have.

    The Chairman. Thank you, Mr. White.
    Can you please describe how these two projects compare in 
cost to other watershed proposals that have been authorized by 
the Committee?
    Mr. White. Oh, there are a variety of costs. Cape Cod would 
be at the higher end, $30 million is a lot. Dunloup would be 
midrange. There are also several projects that are 
significantly less. In fact, when I became Chief, Mr. Chairman, 
I became Chief the day before you had me up here earlier this 
year on the financial audit hearing, there were six watershed 
plans at USDA, at NRCS. Two of them we are dealing with right 
now, Dunloup and Cape Cod. There were four others that were 
less than $5 million. Some were significantly less, which the 
Chief is allowed to authorize. So I would say Dunloup is 
midrange, Cape Cod is higher range and there are a bunch in the 
lower end.
    The Chairman. How does current backlog of applications 
compare to the current funding level, and how much stimulus 
money did you receive and did that really make a dent in the 
backlog?
    Mr. White. Yes, it did. We were very fortunate, got $145 
million for watershed operations. We also had other funds for 
different accounts, we were actually able to use merit-based 
selection criteria, and we were able to fund some of 
Tuplehocken Creek out of that funding. The track record of the 
small watershed program is that it is heavily, heavily 
earmarked. It is almost exclusively earmarked. It makes it 
difficult for the agency to select projects that we feel are of 
the highest environmental and economic good. We were able to do 
that with the stimulus funding, though. But you are right, we 
do have a large $1.2 billion backlog, but as for how we can 
ever meet that--the program is heavily earmarked.
    The Chairman. The chair thanks the gentleman.
    The gentleman from Virginia.
    Mr. Goodlatte. Thank you, Mr. White, and welcome. We are 
delighted to have you with us. Can you tell us what the basic 
criteria are for projects to be accepted and what are the 
agricultural rural criteria?
    Mr. White. Well, they have to meet the statutory 
requirements, which is primarily flood control. They all have 
to have water quality. We have options for municipal industrial 
water. If you look at Buena Vista, that was pretty much--you 
are very familiar with that. That was the flood wall and those 
basins to catch the water coming down. So these are the 
criteria that we go through. Every project also has to have at 
least 20 percent ag benefits in it. That was part of the 
authorizing legislation so you wouldn't see NRCS doing projects 
in downtown St. Louis or something like that. The statute does 
say 20 percent ag benefits including rural communities, so for 
about 20 years the agency, at least that I know of for 20 
years, has interpreted that phrase rural communities meaning 
that we could assist areas that have a population of less than 
50,000. In fact, I still have the original letter that uses the 
old Farmers Home Administration definition on that.
    Mr. Goodlatte. And do you feel that the Cape Cod proposal 
fits into those?
    Mr. White. Oh, absolutely. Absolutely. All 15 communities 
are less than 50,000. It meets that criteria. And actually----
    Mr. Goodlatte. What about the flood control and the 20 
percent agricultural benefit?
    Mr. White. Well, the nonpoint source addresses that part of 
Cape Cod. The 20 percent, actually if you look at the U.S. 
Census of agriculture, 47 percent of the benefits of this 
project do accrue to agriculture because they do include 
shellfish harvesting and fisheries in that.
    Mr. Goodlatte. And how do the cost share ratios for this 
project compare to other authorized projects?
    Mr. White. The statutory requirement, Mr. Goodlatte, is, we 
use the cost share ratio that is the prevailing rate of the 
national cost share program. When this authorizing language--
when the program was signed into law, that would have been the 
old ACP program, Agriculture Conservation Program. Today we 
would use the Environmental Quality Incentive Program, kind of 
the prevailing national program, and that is about 75 percent. 
Now, for pure flood control, we go up to 100 percent and that 
is where you see most of Dunloup Creek.
    Mr. Goodlatte. Obviously with a $1.2 billion backlog of 
projects like this, many of us are interested in where the 
various projects that are going to be undertaken are going to 
be ranked. I would like to ask you how you anticipate these two 
proposals being ranked amidst all the other projects that are 
already authorized.
    Mr. White. I know. I struggled with this, Mr. Goodlatte. I 
knew this question was going to be coming, why are you adding 
another $42 million to something that has already got a huge 
backlog, and that is a valid, honorable, decent question. I am 
going to try and respond to it.
    First, when we talk about this $1.2 billion backlog, I have 
asked NRCS staff to go back and review these backlog projects. 
Some of these projects, as you know, sir, have been on the 
books for decades, and they just haven't been funded because we 
can't break through that earmark barrier. So how many of these 
have old NEPA things? What has changed in the intervening 
years? What kind of technology--if we look at this with fresh 
eyes, would we change something on these projects? And what I 
would like is for a bit of time so I can come back to this 
Committee and say okay, of this $1.2 billion we think we have 
$600 million really great and we have to work on these others. 
So please accept that caveat when we talk about the $1.2 
billion.
    The other thing is, I am going to carry out the law. There 
were six projects that went through the entire process when I 
became Chief. There had been a policy decision made that says 
don't send any more projects in here. I didn't think that as a 
bureaucrat, a middle-aged, somewhat paunchy bureaucrat, that I 
should sit there and say well, Dunloup can go and Cape Cod can 
stay and this one can go. I went ahead and authorized the ones 
I could, and I have put these other two before this Committee 
for your consideration and you can make that assessment on 
whether or not to put them in there, sir.
    Mr. Goodlatte. Well, since my time is running low, let me 
ask you, what kind of sources of funding you are expecting in 
the immediate future? Did you get any stimulus funds? If so, 
how much? How much of that $1.2 billion that currently exists 
do you think you can address this coming year?
    Mr. White. We received $145 million from the stimulus and 
it is all gone. It is out there. We used merit-based criteria 
to address that. The funding methodology we use for the 
watershed program is: first, any funds Congress provides we use 
for technical assistance on projects that are underway. So, if 
Buena Vista was funded last year, we are going to make sure 
that they have the engineering staff to continue ongoing 
projects. Second criterion would be, is there a problem, was 
there a design flaw, did something come out, is there a human 
safety issue, and we would use funds to do that. So that would 
be the second criterion. The third criterion of funding is 
earmarks. If by some unbelievable change we would get past 
that, that brings us to the criteria where Dunloup and Cape Cod 
and every other project would be. At the fourth level after we 
work through existing projects, repair needs, earmarks and so 
Dunloup and the other $1.2 billion would be in the fourth 
category.
    Mr. Goodlatte. And what do you anticipate having available 
to you next year as you see it right now? And I know you don't 
get to make that decision but just to get a ballpark picture. 
Of $1.2 billion, how much of that will you have funds to 
address?
    Mr. White. I think the 2010 projection is around $40 
million.
    Mr. Goodlatte. So----
    Mr. White. I am sorry. I was exuberantly overconfident. It 
is $20 to $25 million.
    Mr. Goodlatte. So we are talking about less than two 
percent of what you need to address being available to you?
    Mr. White. Yes, and that is probably all earmarked.
    Mr. Goodlatte. Mr. Chairman, I want to say I certainly 
don't object to the desires and the projects that other people 
want to add. I just want to point out the difficult 
circumstances we already find ourselves in in trying to address 
what is on the books.
    So I thank you. I thank Congressman Delahunt. This is 
definitely something that needs attention and I appreciate your 
input.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from New York.
    Mr. Massa. Thank you, Mr. Chairman, and thank you, Chief 
White, for your service in the field. I would like to associate 
myself with the comments from the honorable gentleman from Cape 
Cod. In my youth, I had the privilege of vacationing in that 
area and can testify firsthand as to the merits of the projects 
put before us today. I would also like to add, knowing very 
well the backlog that has just been discussed, there is 
somewhat of a sense of urgency with respect to restoration of 
freshwater-saltwater interchange marshes. This is not something 
that can go on for decades. They can get to a point of 
marginality where restoration can still happen, but dropping 
below that you will not be able to restore them. There has to 
be a certain amount of freshwater-saltwater interchange stock 
from which you can then derive the replenishment, and Chief 
White, I hope that I am accurate in that assumption.
    Mr. White. Yes, sir.
    Mr. Massa. Having spent some time in the field of coastal 
biology--I am going way back now but nonetheless, it is 
something that I know a little bit of. I would urge you to 
place these particular projects with some measure of priority, 
even considering the exceptional limited funding and the 
overall fiscal environment in which we all operate under today.
    I would also like to add a word in support of a relatively 
unheralded industry that, frankly, goes largely unrecognized 
except for a few TV advertisements, and that is the cranberry 
industry. As a cancer survivor, I can tell you today that that 
particular industry is pretty much at the forefront of high-
oxidant nutrient supplements. It is getting a great deal of 
attention in both the holistic medicine and the conventional 
medicine field for cranberry derivatives, and I would, 
understanding the concentration of the cranberry industry in 
one particular state, frankly in almost one particular 
Congressional district, we are looking at about 80 percent of 
the production in one area. I would be very concerned to see 
that farm--and we often don't think of it as a farming product 
but it is--left unattended and, no pun intended, withering on 
the vine. So I would like to associate myself with the remarks 
of the two witnesses today and offer any and all assistance 
that I can make as we move forward on this.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Nebraska.
    Mr. Smith. Thank you, Mr. Chairman.
    Chief White, has the NRCS ever done a full buyout through 
the watershed operations?
    Mr. White. We actually have a couple underway. One that 
comes to my mind is Neshaminy Creek, Pennsylvania. It is 
underway right now in the floodplain, wherein this particular 
area individuals can choose a buyout or they also have the 
option of elevation to kind of put the house on stilts, so yes, 
sir, we do. I think that was around $16 million. I could be way 
off on that, though.
    Mr. Smith. And then how successful do you anticipate the 
Dunloup Creek voluntary buyout to be? Could you maybe describe 
what you see happening or what might happen?
    Mr. White. Yes, sir. Mr. Shumate is here from Dunloup and 
we were visiting ahead of time. The universe is like around 300 
homes, businesses, churches, and we were hoping for maybe 230, 
somewhere around 80 percent of that. He told me right now there 
are over 112 that have signed up for it. So, 50 percent of that 
goal is already met and people are going door to door to make 
sure every person knows that they have this option, Mr. Smith.
    Mr. Smith. And how many projects in the last 2 years have 
gone on to the list by the approval of the NRCS Chief?
    Mr. White. In the last 2 years, exactly four, which have 
occurred since March of this year when I approved four smaller 
projects--I am sorry--authorized four smaller projects. We are 
actually not talking about funding here. We are talking about 
authorization. The funding would occur in those other 
committees.
    Mr. Smith. All right. Thank you, Mr. Chairman.
    Mr. White. Thank you, Mr. Smith.
    The Chairman. Thank you, Mr. White, and thank you, Mr. 
Delahunt, for your testimony today.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any questions posed by a Member.
    This hearing of the Subcommittee on Conservation, Credit, 
Energy, and Research is adjourned.
    [Whereupon, at 10:35 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Statement of Margaret Geist, Executive Director, Association 
                          to Preserve Cape Cod
July 30, 2009

    Mr. Chairman and Honorable Members of the Committee:

    I appreciate the opportunity to submit testimony in support of the 
Cape Cod Water Resources Restoration Project (the Project). The 
Association to Preserve Cape Cod (APCC), the largest environmental 
advocacy group on Cape Cod, is the founder and coordinator of the 
Coalition for the Cape Cod Watershed Project. The coalition includes 
the Cape Cod Chamber of Commerce and 25 other organizations. APCC also 
holds two seats on the Coastal Resources Committee, a committee 
appointed by the Barnstable County Commissioners to address coastal 
issues.
    The Project will result in the restoration of 7,300 acres of 
shellfish beds, 4,200 acres of migratory fish runs and 1,500 acres of 
degraded salt marshes on Cape Cod, all of which are critical to the 
economic vitality and ecological integrity of the region.
    The proposed Project will bring much needed economic benefits to 
Barnstable County, which has the second highest unemployment rate in 
the Commonwealth of Massachusetts. According to the Massachusetts 
Executive Office of Labor and Workforce Development, Division of 
Unemployment Assistance, seasonally unadjusted unemployment for 
Barnstable County in March 2009 was 10.9 percent, compared to 6.8 
percent in March of 2008.
    Full Project funding will generate an estimated 543 person years of 
employment. Approximately $18 million will go toward direct 
construction and $10 million toward engineering and construction. As 
the building and construction trades have been particularly hard-hit by 
the current recession, this project will provide a crucial boost to the 
region's workforce.
    Commercial and recreational shellfishing are important components 
of the Cape's economy. In 2004, the estimated value of commercial and 
recreational shellfish landings was $8.57 million. This value does not 
include the price of permits, licenses, shellfishing equipment and all 
the revenue attributable to the restaurant trade and visitor 
accommodations. Funding for the Project will result in the protection 
and restoration of 7,300 acres of shellfish habitat. This large 
addition to the area of shellfish beds will substantially increase the 
contribution of shellfishing to the region's economy.
    A study by the Cape Cod Chamber of Commerce in the 1990s found that 
coastal tourism accounted for $1.2 billion of the total annual economy 
of Cape Cod and that beaches and coastal recreation were the number one 
tourist attraction in the region. It is expected that the Project will 
benefit coastal tourism in a number of ways. For example, improving 
water quality for shellfish beds through storm drain remediation 
projects will enhance water quality for other recreational uses. 
Restoring migratory fish runs will provide additional opportunities for 
residents and visitors to witness the spring herring runs on Cape Cod, 
a seasonal experience that already attracts many people.
    Numerous environmental benefits will also accrue from the Project. 
Salt marshes create the foundation of a coastal food web that supports 
a large variety of coastal fish and bird species. They also provide 
vital nesting and breeding habitats for migratory waterfowl along the 
Atlantic Flyway. Coastal wetlands serve as important nursery and 
spawning grounds for many commercially and recreationally important 
fish and shellfish species. Running through many salt marshes are 
streams and rivers that provide passageways for migratory fish, 
including smelt, American shad, herring, eels and trout as they travel 
to and from spawning grounds. These species are targeted by active 
fisheries but also serve as an important food source for high-ranking 
predators such as striped bass and bluefish.
    Seaward of the marshes in the shallow coastal waters are acres of 
shellfish beds from which oysters, bay scallops, clams, and the like 
provide food for many species.
    Restoration of salt marshes will assist in buffering coastal 
storms, thereby helping to protect public and private properties. Salt 
marsh restoration may enhance our ability to adapt to sea level rise, 
as new culverts facilitate the natural flow of tidal water into the 
marsh and reduce flooding on the seaward side of the culvert.
    Salt marshes also absorb pollutants and nutrients. The nutrient 
issue is particularly important for Cape Cod, where communities are 
only just beginning to address the extraordinary costs of wastewater 
infrastructure.
    Restoration of fish runs and passages, and to some extent, 
restoration of salt marshes, increases the viability of migrating fish 
species, many of which have experienced severely declining populations, 
in recent years.
    The Project will offer tangible economic and societal benefits to 
individuals and communities on Cape Cod. There are real people behind 
the numbers and dollars of projects such as this one. For example, the 
restoration and subsequent reopening of a coastal pond to shellfishing 
provided my son with funds to help pay for his college education. Today 
my son teaches history at a local high school. There are numerous 
studies such as the above where the availability of abundant and 
healthy natural resources provides substantial contributions to 
individuals and to the overall wellbeing of communities.
    There is overwhelming support for this project in the region, from 
the fifteen towns that participated in the development of the plan, to 
the state agencies charged with protecting salt marshes, fish runs and 
shellfish beds, to the Cape Cod Chamber of Commerce and the other 
member organizations of the Coalition for the Cape Cod Watershed 
Project. This is truly a locally led project that has broad public and 
state support.
    Thank you for the opportunity to submit testimony in support of the 
Cape Cod Water Resources Restoration Project.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
                                 ______
                                 
   Submitted Statement of Mike Shumate, Board Member, Dunloup Creek 
                         Watershed Association
29 July 2009

    Mr. Chairman and distinguished Members of the Agriculture 
Committee, my name is Mike Shumate and as a Board Member of the Dunloup 
Creek Watershed Association, I'm here today representing our officers, 
members, and homeowners who reside in the floodplain seeking relief 
from the ongoing floods. Dunloup Creek is a 16.2 mile long watershed 
which trails through five communities before emptying into the New 
River. These communities are Kilsyth, Mount Hope, Glen Jean, Red Star, 
and Harvey. The relief we seek is funding for the 2007 NRCS Voluntary 
Buyout Program.
    Our association is one of the oldest active groups in West Virginia 
dating back to 1964. We are the stewards of our watershed and take 
great pride in our efforts to protect our environment and our friends 
and neighbors. We are the ones that wade into the stream to remove 
everything from kitchen appliances, exercise equipment, hot water 
tanks, cement piers, tires, 50 gallon drums, and carpet. We have been 
seeking relief from the ravages of flooding for forty-five years which 
encompasses three Watershed Plans dated 1976-1998--and May 2007.
    The first study dated in 1976 was to construct a channel around the 
communities of Glen Jean and Mount Hope. However, the efforts to fund 
were de-authorized in 1984. This was followed by a second study that 
produced a Local Implementation Plan published in 1998 which proposed 
the construction of two earthen dams above the community of Kilsyth on 
Dunloup Creek and another on Mill Creek. However, this plan lacked the 
necessary assessment of all hydraulic, environmental, economic, and 
cultural concerns needed to proceed toward a funding request. 
Therefore, two studies and twenty-two years passed without resolution 
to our flooding and its impact upon our homes and properties.
    You must understand the frustration felt by our officers, members, 
and homeowners over these many years that we couldn't get to a funded 
solution. Our watershed association has seen seven Chairmen come and go 
over the last forty-five years but we continued on in our efforts. Our 
motto being ``Willing to help ourselves but will enjoy your helpful 
company.''
    Then along came the floods of 2001 and 2004, the two 2001 floods 
occurred within 10 days of each other. Floods that were deemed 30 year 
floods and with that penned identity we all became alarmed at what must 
a 100 year flood entail. It became apparent to us that this would be 
loss of lives and homes. We now fully understand the urgency of getting 
out of this floodplain.
    We understand with the many years of sedimentation buildup in our 
stream beds that 1 to 2 inch rainstorms cause the stream to overflow 
its banks. The storm of 2001 was a rain event of eleven inches in less 
than 4 hours. The water rose quickly and rushed through our yards, 
automobiles, and homes. Those two floods alone cost $29.5 million 
dollars in damages and those figures come directly from the Pre-
Disaster Mitigation Risk Assessment report by the Fayette County Office 
of Emergency Services.
    The 290 homes that reside within the floodplain represent about 
1,160 family members. These residents, within the five communities, 
have seen their homes devalued due to these floods. Every rain event 
makes us nervous as we continually check the rising water. We're all 
used to having lime spread over our lawns to kill the bacteria left in 
the aftermath of flood waters. This is extremely unhealthy for our 
children and other family members.
    Our renewed efforts following the 2001 and 2004 floods made us 
realize we had to form partnerships with our county, state, and Federal 
agencies. We needed sponsors and our watershed needed to become more 
active and communicate with our members and everyone that agreed to 
partner with us toward a common goal of getting a viable plan to get us 
out of the floodplain. We worked with everyone from our Governor, state 
delegates, state senators, Senators and Congressmen, agency heads 
representing the Natural Resources Conservation Service, Southern 
Conservation District, WV Conservation Agency, Fayette County 
Commission, Office of Emergency Services, and the New River Gorge 
National Park Service.
    This Voluntary Buyout Plan offers the best option of any before us. 
We have the support of our residents and beginning on 15 June through 1 
September 2009 we are taking applications for those who wish to be 
considered for buyout option. Again, this is a voluntary program and we 
are going door-to-door to make sure 100% notification of all the 
residents. Response to date has been overwhelming. We have a special 
``Question & Answers'' session scheduled for 6 August followed by a 
``housing fair'' on 9 August 2009. We are working hard, along with our 
sponsors, to insure the best outcome for everyone.
    Our watershed motto, ``Willing to help ourselves but will enjoy 
your helpful company'' is at the point where we need the support of 
each and every Member of this Agriculture Committee. We have worked 
extremely hard to get this project to this Committee room here in the 
Longworth House Office Building. I will be seated in the Agriculture 
Committee room on Thursday 30 July 2009 and will carry back my 
experiences to my fellow West Virginians.
    Make my travels home be one with a message that we now have a new 
sponsor and that being the House Agriculture Committee. Thanks for this 
opportunity.

Mike Shumate,
Board Member,
Dunloup Creek Watershed Association.

                                  <all>

</pre></body></html>
